UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT

No: 20-1096

Richard Leo Occhino
Plaintiff - Appellant
v.
Geo. Sherman and Assoc., Gen Shareholder Geo. Sherman & All Duluth Mgmt. at Gr sysolon
Plaza; Brent Malvick, Hanft Fride Law Firm; Holly LaBoone Haller, Hanft Fride Lav' Firm;
John B. Schulte, Referee; State of Minnesota
Defendants - Appellees
No: 20-1134

Richard Occhino
Plaintiff - Appellant
v.
Geo. Sherman and Assoc., Gen. Shareholder Geo. Sherman & All Duluth Mgmt., at Gr^ysolon
Plaza; Brent Malvick, Hanft Fride Law Firm; Holly LaBoone Haller, Hanft Fride Law F irm; MN
State Judge John B. Schulte, Referee; State of Minnesota
Defendants - Appellees
Appeals from U.S. District Court for the District of Minnesota
(0:19-CV-02546-ECT)

JUDGMENT
Before COLLOTON, KELLY, and STRAS, Circuit Judges.

This court has reviewed the original file of the United States District Court,
by the court that the judgments of the district

It is ordered

court are summarily affirmed. See Eighth Circuit

Rule 47A(a).
The motion for appointment of counsel filed by Appellant Mr. Richard Occhinc
denied.
May20,2020'

Order Entered at the Direction of the Court:
Clerk, U.S. Court of Appeals, Eighth Circuit.
/s/.Michael E. Gans

IS

